<html>
<title> - H.R. 4869, RESTROOM GENDER PARITY IN FEDERAL BUILDINGS ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




       H.R. 4869, RESTROOM GENDER PARITY IN FEDERAL BUILDINGS ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4869

       TO PROVIDE FOR RESTROOM GENDER PARITY IN FEDERAL BUILDINGS

                               __________

                              MAY 12, 2010

                               __________

                           Serial No. 111-108

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform







                  U.S. GOVERNMENT PRINTING OFFICE
  63-145 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2010.....................................     1
Text of H.R. 4869................................................     3
Statement of:
    Clarke, Hon. Yvette, a Representative in Congress from the 
      State of New York..........................................    16
    Cohen, Hon. Steve, a Representative in Congress from the 
      State of Tennessee.........................................    17
    Peck, Robert A., Public Building Service, U.S. General 
      Services Administration; Kathryn H. Anthony, professor, 
      School of Architecture, University of Illinois at Urbana-
      Champaign; and Sharon Pratt, former Mayor, Washington, DC..    28
        Anthony, Kathryn H.......................................    37
        Peck, Robert A...........................................    28
        Pratt, Sharon............................................    43
Letters, statements, etc., submitted for the record by:
    Anthony, Kathryn H., professor, School of Architecture, 
      University of Illinois at Urbana-Champaign, prepared 
      statement of...............................................    39
    Cohen, Hon. Steve, a Representative in Congress from the 
      State of Tennessee, prepared statement of..................    20
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    13
    Peck, Robert A., Public Building Service, U.S. General 
      Services Administration, prepared statement of.............    31
    Pratt, Sharon, former Mayor, Washington, DC, prepared 
      statement of...............................................    44
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     7

 
       H.R. 4869, RESTROOM GENDER PARITY IN FEDERAL BUILDINGS ACT

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the committee) presiding.
    Present: Representatives Towns, Maloney, Cummings, Watson, 
Kaptur, Norton, Cuellar, Speier, and Issa.
    Staff present: Adam Hodge, deputy press secretary; Carla 
Hultberg, chief clerk; Marc Johnson and Ophelia Rivas, 
assistant clerks; Mike McCarthy, deputy staff director; Jenny 
Rosenberg, director of communications; Joanne Royce, senior 
investigative counsel; Gerri Willis, special assistant; Alex 
Wolf, professional staff member; Lawrence Brady, minority staff 
director; John Cuaderes, minority deputy staff director; Rob 
Borden, minority general counsel; Frederick Hill, minority 
director of communications; Adam Fromm, minority chief clerk 
and Member liaison; Kurt Bardella, minority press secretary; 
Stephanie Genco, minority press secretary and communication 
liaison; Seamus Kraft, minority deputy press secretary; and 
Mark Marin, minority professional staff member.
    Chairman Towns. The committee will come to order. Good 
morning and thank you all for being here.
    Today's hearing will address the issue of equal access to 
restroom facilities. This is not a minor issue. I am certain 
that every woman in this room has frequently experienced the 
inconvenience as well as the discomfort caused by an 
insufficient number of women's restroom facilities. Women are 
often forced to wait in long lines to use public restrooms or 
walk further to find a restroom, while men rarely have the same 
problem.
    The lack of restroom facilities for women has a number of 
causes. Many public buildings, including universities, 
airports, theaters, offices, and factories were built decades 
ago before women entered the work force in large numbers. 
Moreover, these buildings were designed and built at a time 
when contractors, architects, engineers, builders, and 
government procurement officials were overwhelmingly male and 
rarely considered the needs of women.
    To be honest about it, while women have made a lot of 
progress, those professions are still dominated by men, and old 
habits die hard. Public restroom facilities for women have 
still not caught up to those for men.
    Throughout history, public restrooms have been the site of 
institutional discrimination by race, physical ability, and 
gender. With laws such as the Civil Rights Act and the 
Americans with Disabilities Act, we have made great strides in 
dealing with ace and disability discrimination. However, we 
have not done as well with gender discrimination. Today, women 
still lack equal access to restrooms in many places of 
employment, education, and recreation.
    The fact that many Federal buildings do not provide as many 
restroom facilities for women as they do for men is simply 
unfair. It is time for that to change.
    Within the last couple of decades, public appreciation of 
gender parity issues has gradually resulted in improvements in 
restroom gender parity. As of 2006, at least 21 States had 
adopted statutes addressing restroom gender parity. That is 
good, but we need to take the next step. That is why I 
introduced H.R. 4869, the Restroom Gender Act, with my 
colleague, Congressman Issa, from the great State of 
California.
    [The text of H.R. 4869 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Towns. The bill requires that all new Federal 
buildings, as well as major renovations of existing Federal 
buildings, have at least an equal number of restroom facilities 
for men and women. The passage of this bill would be a 
milestone on the path toward true gender parity.
    I am proud to say that I introduced the bill with the 
support of the ranking member, Mr. Issa, who was an original 
cosponsor, and several other members of this committee. H.R. 
4869 will ensure that, from now on, Federal buildings will be 
constructed with equal access to restroom facilities regardless 
of gender.
    This hearing is the next step toward enacting this 
important legislation. I look forward to hearing the testimony 
of today's witnesses.
    I will now yield 5 minutes to our ranking member, the 
gentleman from California, Congressman Darrell Issa, for his 
opening statement.
    [The prepared statement of Hon. Edolphus Towns follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Issa. Thank you, Mr. Chairman, and thank you so much 
for your leadership on this important issue.
    As people seldom realize in Congress, in order to move a 
piece of legislation, we hold hearings. In order to understand 
the final and best form of that legislation, we hold hearings. 
I think this is no exception. Your leadership by drafting a 
piece of legislation that attempts to create equal access is 
not only laudable but it is essential. As we view the 
legislation and with your leadership I hope that we can gain 
the most important part of the intent of this legislation, that 
is, that we get a one-to-one ratio in access.
    In preparation for this hearing, I have reviewed a number 
of documents and discovered, for example, the Department of 
Defense facilities, those that are coed, require not one to 
one, because there is only about 17 percent women today in the 
military versus 83 percent for men. So the ratio there would be 
different. But I believe your leadership is essential, because 
that ratio is changing. So to find equal access there will be a 
different and ever-changing requirement. There is no need to 
build equal amounts of men's and women's rooms in the Pentagon 
today, but that is changing. We need to plan. We need to ensure 
that the architects designing new facilities design them based 
on the assumption that someday there will be roughly the same 
amount of men and women, potentially, or even, in some cases, 
more women than men.
    Additionally, through your leadership on this issue, we 
have been reminded that the same number of facilities is not 
the same number of access. As Members of Congress were 
periodically invited to the Kennedy Center, Kennedy Center 
events typically tend to be equal men and equal women. Anyone 
who has ever been to a black tie event held at the Kennedy 
Center is well aware that there is a line at the men's room, 
but it pales in comparison to the one that wraps halfway around 
the building at the ladies' rooms. The Kennedy Center enjoys 
equal number of facilities for men and women. Equal in this 
case is not equal access.
    So I join with the chairman in his leadership in 
recognizing that, by the time this bill becomes law, it has to 
create a mandate for equal access, for flexibility in design, 
so that the buildings of tomorrow and retrofitted buildings of 
today recognize that a longer line for one and a shorter line 
for the other, no matter which way it works, is inappropriate 
in our design.
    Federal buildings should lead in that endeavor. The GSA and 
other organizations responsible need to begin upon this notice 
and hopefully begin in earnest, upon enactment, to realize that 
we want architectural plans to be a model for the rest of the 
world in providing one-to-one ratio of access based on not only 
what the ratios are today but planning for ratios that may 
change over time.
    Mr. Chairman, I want to personally thank you for your 
leadership. This is an area in which this committee is taking a 
leadership position that I believe no other committee has even 
begun to look at in our oversight over Federal facilities, and 
the Federal work force makes us ideally suited to shepherd this 
legislation. I thank the chairman, and I yield back.
    Chairman Towns. I thank the gentleman from California for 
his very kind statement.
    I now yield 3 minutes to the gentlewoman from Washington, 
DC, Congresswoman Norton.
    Ms. Norton. Mr. Chairman, I appreciate this hearing, but it 
really says something that we have to hold a hearing on what 
really should be an administrative matter.
    My friends on the other side of the aisle and us over here 
have a lot to disagree about, but I hope that gender parity 
when it comes to men and women who equally have to go to the 
bathroom is not one of them. The reason this has become an 
issue, of course, has been precisely been because some 
facilities were designed as if there were only men in the 
world, much less men who had to attend to their needs.
    My friend, the ranking member, who mentions that the line 
is longer for women, you will notice that we said it should 
equal or exceed. But the reason I could perhaps inform him in a 
way that he could not be expected to know in part is that women 
spend longer in there. They are not always just attending to 
their wants, sir. We go and we have to attend to our looks as 
well. So you will see some people standing in line that don't 
have to go to the bathroom at all when they want to see how 
they look. All we want to make sure is that those who do want 
to attend to their needs are able to do so equally with men who 
have the same needs, and the last time I heard men and women 
really do have the same needs in this one sphere.
    Thank you very much, Mr. Chairman.
    Chairman Towns. Thank you very much.
    I now yield 3 minutes to the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman; and I 
thank you all for holding this hearing. I think it is a very 
important hearing.
    We have seen the lines at sporting events, airports, 
museums. Women are usually standing in extraordinary lines 
waiting to use the restroom. It is a phenomenon that we have 
come to accept, that there will always be a wait for the 
women's facilities.
    This type of gender discrimination should not exist in a 
time when we have a female Secretary of State, female Speaker 
of the House, two female Associate Justices and one on the way. 
It escapes me as to why women were treated as second-class 
citizens.
    Restrooms are among the few remaining segregated spaces in 
the American landscape, and they remain among the more tangible 
relics of gender discrimination. It often goes unnoticed and is 
considered normal, natural, or acceptable. Buildings have not 
kept pace with the changing demographics of the past half 
century when more women than ever have entered the workplace 
than ever before.
    However, as Members of Congress, we need not look far to 
see this discrimination. Just across the street at the Capitol 
building was an example of restroom gender inequality. 
According to the Journal of Planning literature, female Members 
of the U.S. House of Representatives would have to walk down a 
long hallway, turn left, then turn right into a small, 
windowless bathroom with only three stalls. By contrast, men 
walked only a few feet away from the House floor. Since then, 
ladies' restrooms have been added to the first floor of the 
House and, most recently, in 2000, had three additional stalls 
added; and, according to Ms. Norton, that is definitely not 
enough.
    In the early 1990's, in the Senate, Nancy Kassenbaum and my 
colleague from Maryland, Barbara Mikulski, were not allowed to 
use the Senators-only restroom, which was, in fact, a male-only 
restroom. They had to trek downstairs and stand in long lines 
with the tourists. Senate majority leader George Mitchell 
announced that he was having women's restrooms installed just 
outside the Senate chamber to accommodate the growing number of 
female Senators.
    And then, in the 110th Congress, Mr. Chairman, I joined you 
all in cosponsoring the Restroom Gender Parity Act for Federal 
Buildings; and I join you again and do so gladly.
    With that, Mr. Chairman, I submit the rest of my statement 
for the record; and, with that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Towns. I would like to thank the gentleman from 
Maryland for his statement; and, of course, now we will turn to 
our first panel of witnesses: U.S. Representative Steve Cohen 
from the State of Tennessee, the 9th District; and U.S. 
Representative Yvette Clarke, the 11th District of New York.
    Now it is committee policy that all witnesses are sworn in, 
and so will you please stand and raise your right hands.
    [Witnesses sworn.]
    Chairman Towns. You may be seated. Let the record reflect 
that both witnesses answered in the affirmative.
    Let me begin by saying I ask the witnesses to summarize 
their testimony in 5 minutes.
    You know the rules about the lights. I don't have to 
explain that to you. You're very familiar with them. In fact, 
you turn them on and off. The yellow light means you have a 
minute left; and the red light means stop, of course. And then, 
of course, we will have time to ask questions.
    So why don't I start with you first, Representative Clarke; 
and then we'll go to Congressman Cohen. Congresswoman Yvette 
Clarke, Brooklyn, New York.

 STATEMENT OF HON. YVETTE CLARKE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Ms. Clarke. Thank you very much, Chairman Towns, Ranking 
Member Issa, for inviting me to speak before the committee this 
morning.
    I am here in support of H.R. 4969, the Restroom Gender 
Parity in Federal Buildings Act. This bill, which was 
introduced by Chairman Towns, with Ranking Member Issa, 
Representative Visclosky, and myself as original cosponsors, 
requires the Federal acquisition regulation be revised to 
require the number of toilets in women's restrooms equal or 
exceed the number of toilets and urinals in men's restrooms in 
all future Federal buildings or in major renovations of 
existing Federal buildings. Once passed, this legislation will 
align the Federal Government with the restroom gender parity 
laws that are already on the books of several States and 
municipalities, including Virginia, Texas, Pennsylvania, 
California, and New York.
    As a former New York city councilwoman, I introduced the 
women's restroom equity bill, which created a two-to-one ratio 
of women's restrooms to men's restrooms. My bill became city 
law in 2005. Previously, New York City had required a one-to-
one ratio for women's restrooms to men's restrooms.
    Restroom parity refers to equity of access to public 
restrooms by all users. Though the issue of inadequate 
accommodations may seem trivial to some, restroom gender parity 
is an issue that impacts a women's health as well as her 
quality of life. Research underscores the potential health 
implications for women waiting in long restroom lines. These 
include abdominal pain, increased risk of cystitis, urinary 
tract infections, bladder infections, all of which can cause 
renal damage if not adequately treated. Pregnant women and 
older women suffering from incontinence are particularly 
impacted due to their need to visit the facilities more 
frequently than others. To avoid using inadequate restroom 
facilities, we women oftentimes forgo eating or drinking and 
will often ``hold it'', which poses problems. Inadequate 
restrooms are more likely to affect women because they often 
have small children, may be breast feeding, have feminine 
hygiene needs, and usually have to wait in a long line.
    According to Sarah A. Moore's 2002 law review article, 
Facility Hostility? Sex Discrimination and Women's Restrooms in 
the Workplace, gender discrimination in restrooms can be found 
where restrooms are unequal between men and women, when they 
are inadequate for women's needs or are missing completely. 
Moore's article aptly pointed out that unequal women's 
restrooms may be found in many professional places of 
employment, including our Nation's Capitol. A Congresswoman in 
the U.S. Capitol must plan her trips to the restroom properly 
or she may miss a vote, and I can attest to that.
    Public restrooms have historically manifested many forms of 
discrimination. For example, restrooms used to be racially 
segregated and inaccessible to the disabled. Restrooms in 
airports where wealthier travelers go are much nicer than in 
bus stations. Gender discrimination is yet another form of 
restroom inequity.
    According to a recent GAO report, most Federal Government 
buildings were constructed, on average, over 46 years ago. At 
that time, women were not in the work force in the large 
numbers that they are today. More importantly, issues of gender 
equality were a nonissue when many of the Federal Government 
buildings were designed and built, primarily because women were 
not empowered to the extent that they are now.
    That was then. This is now. Now is the time to correct the 
oversights of yesterday by addressing the restroom gender 
parity issue. I ask that my colleagues on this committee join 
me on improving the health and lives of women by supporting the 
passage of H.R. 4869, the Restroom Gender Parity in Federal 
Buildings Act.
    Chairman Towns, you are to be commended for acknowledging 
this inequity that has existed in our civil society for far too 
long. Let me thank you for your courage of conviction in 
bringing this longstanding issue to light and moving closer to 
addressing this inequity for women and their families, and I 
yield back the remainder of my time.
    Thank you, Mr. Chair.
    Chairman Towns. Thank you very much. Let me thank you for 
your statement and also thank you for the work that you've done 
on this issue; and, of course, we look forward to continuing to 
work with you on it.
    I now yield 5 minutes to the gentleman from Tennessee, Mr. 
Cohen.

  STATEMENT OF HON. STEVE COHEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Cohen. Thank you, Mr. Chairman.
    Chairman Towns, Ranking Member Issa, and members of the 
committee, I thank you for allowing me to testify on this 
important legislation. It is also an honor to sit next to 
Congresswoman Clarke, who is a Member of the great class of 
2006 and has worked on this issue in New York, and to testify 
on the presence of the photograph of the great Chairman John 
Conyers. As author of the Tennessee Women's Restroom Equity 
Act, I am pleased to address this issue here in Congress; and I 
am pleased it is being addressed.
    The Council of State Governments has a model act passed in 
the 1990's on this issue, and so that is available. And the 
Council of State Governments saw this as an issue that all 50 
States should be made aware of at least 15 years ago.
    About half the States have passed some sort of restroom 
parity law by now as well as Mr. Powell, and the Federal 
Government needs to catch up, normally a world leader. But, in 
this case, Brandeis' opportunities for the States to be 
laboratories of democracy have also been laboratories for the 
Federal Government to learn, not just the other States.
    Mr. Chairman, a lot of times, people, when I dealt with 
this bill many years ago, called it ``potty parity.'' They made 
jokes. But the fact is it is not a joke. Not only is it not a 
joke to women, it is not a joke for men who go with women and 
have to wait while they are standing in line.
    But it is also politically very popular. It's the right 
thing to do, and it's catching up with the cultural lag in our 
society.
    We've seen long lines at women's restrooms when men have 
none, and that's gone on for years. It's just simply a fact 
that, on average, women take longer.
    Congresswoman Clarke mentioned some needs, feminine 
hygiene, that, to be honest, didn't hit my mind immediately, 
but that's certainly an issue, and baby's needs. There's more 
equality now with dealing with children, but the women have 
oftentimes been the primary caretaker and taken women in the 
restroom with them as well.
    There are many studies, including one at the University of 
Washington that's extensive, on the ratio that should be 
required and the need for this. And the fact is, thankfully, 
more women care about their appearance than men do, and so 
there is more time, and I'm thankful that occurs. There are 
also stalls. There's the removal of clothing. And when men 
remove their clothing, you've got to hang your coat up; and 
that takes more time, too.
    So there's many reasons for the extensive time, additional 
time, and the need for more equity and proper accommodations 
for women.
    I first recognized this need in Tennessee when I was at 
Starwood Amphitheater at a concert. The women's line just went 
on forever, and the men's line wasn't very long. In fact, there 
were women jumping in the men's line and joining in the men's 
restroom. A lot of beer was served at that concert. It wasn't 
fair; and I realized, you know, those women were in distress, 
as well as being a little inebriated. I noticed it; and, also, 
I had to wait for my friend in line and thought, well, you 
know, what am I going to do? I just hung out there near the 
restroom, not necessarily a place you want to hang during a 
concert.
    So it's an inconvenience to males as well as females, but, 
to us, it is secondary. It wasn't conscious discrimination, 
but, like so many other things like institutional racism, 
sometimes it is there without people knowing it. It just 
happened over the years and has been perpetuated, and this is 
somewhat institutional racial--gender discrimination.
    These facilities were generally designed by architects who 
were predominantly men. Engineers constructed them; and, again, 
they were mostly men. It didn't seem like an issue to them, and 
they didn't have any concerns. In the Federal buildings at that 
time most Federal employees were men, and there was 
discrimination as well. Today, we have reversed a lot of that 
history, but still we have restrooms being built without 
restroom equity being taken into consideration.
    It's not just by convenience. There are health 
consequences. Abdominal pain, cystitis, and urinary tract 
infections can occur. So we need access, and we need to step 
up.
    Chairman Towns, you are to be commended for doing this and 
Ranking Member Issa. Sometimes for men it's not quite as easy 
an issue. It wasn't as easy on women, also. I tried to get 
Speaker DeBerry to be my sponsor the first time, and she got 
such ridicule she dropped off. I got another woman to be the 
sponsor. She got ridicule. Finally, we got a sponsor. But it 
was difficult for women sometimes to take on the issue as well 
as men, but it is an issue that is important for both genders.
    As you consider this legislation, I would hope that some of 
the experience we had in Tennessee could be taken advantage of, 
that flexibility and discretion are needed. We had a two-to-one 
ratio, and that was I think the right ratio. But we found out 
that sports events in covered sports arenas--the Tennessee 
Titans, in originally Adelphia coliseum, now called LP Field, 
the upper deck had many, many more men who were getting 
inebriated and needed more men's restrooms.
    So we went back and changed the law and allowed the board 
to determine the proper ratio so it could take into 
consideration those places like, as Chairman Issa mentioned, 
the Department of Defense, where there might be more of a 
likelihood that you would have a need for more men's 
facilities. But at mens' football games on Sundays you need 
more men's restrooms in the upper deck at Adelphia. We found 
that out. This applies to Federal buildings, and I think it's 
so important that it be passed and passed in a proper fashion.
    Mr. Chairman, you have made great strides and we made great 
strides in this country in reducing gender discrimination. We 
did that better and we have done other laws such as this. But 
we need to work in this area, and I appreciate you and Ranking 
Member Issa for bringing forth the legislation, and I am proud 
to be a cosponsor and willing to help in any way you can it 
becomes law. It's needed in America in 2010 and it's been 
needed before.
    Thank you very much.
    [The prepared statement of Hon. Steve Cohen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Towns. Thank you.
    Let me thank both of you for your statement; and let me 
begin by saying to you, Ms. Clarke, and to Representative 
Cohen, how and why did you get involved in this issue?
    Ms. Clarke. Mr. Chairman, I got involved in this issue 
because I realized during the holidays what distress women 
really are under. It's not just the stress of having to prepare 
for the holidays and being out in the public. It is maneuvering 
with children. I looked at the way that commerce was being 
impacted. I saw women who had to wait in line for the restroom 
and then have to wait on line for a checkout counter; and I saw 
people just sort of throw their hands up and say, I'm not even 
going to deal with it today.
    I realized that there were adverse consequences, and I 
realized that over time we had actually been training young 
girls and women to hold it. It has just become a part of our 
conditioning and behavior that was totally unnecessary.
    So we looked at this in the city of New York in particular 
where we are always in very crowded situations and realized 
there was something we could do about it, that in the 
development of our building codes we could create the 
conditions under which we could create a restroom equity. So I 
moved forward with my colleagues in the city of New York, and 
we made it happen.
    So I believe it's possible that we can do this at the 
Federal level, and it will be a major leap forward so that 
young girls coming up today will not be conditioned in a way 
that I was to have to hold it every time we are in an 
environment where the line is so long and risk impairing our 
health.
    So thank you very much for asking that question, Mr. 
Chairman.
    Chairman Towns. Thank you. Thank you very much.
    Mr. Cohen. Thank you, Mr. Chairman.
    I can probably just say, similar to what Representative 
Clarke said, I mentioned in my testimony we passed our 
Tennessee bill in 1994, so it was at the Starwood Amphitheater 
when I noticed this extraordinary line, unbecoming but 
necessary conduct of some women jumping into the men's line and 
going into the men's room. And I just thought there is 
something happening here, and it is not necessarily good. I 
think that's some song I'm paraphrasing. I saw it at all kind 
of facilities, and it was just indicative of a history of lack 
of attention by, apparently, male-oriented architects and 
engineers, not intentional but just a pattern and a history of 
not thinking about it.
    And then what I did, to be honest, I used women's lines--
after I would be in line and I would be out and my date would 
still be in line or whatever, I'd use the women's line as a 
focus group; and I would ask them, what would you think about a 
law to do this? And, believe me, every one of them was real big 
in favor. And I told them write--I found out who their 
representatives were and who their senators were and told them 
to call them. We passed our bill.
    Chairman Towns. Thank you very much.
    You know, to be honest with you, my experience was that we 
were at a play; and, of course, I went to the men's room and 
came back. The second act was getting ready to start, and I was 
still looking for my wife, and she's nowhere to be found. So, 
finally, I'm getting really agitated at the fact the second act 
is going to start. When it gets dark in there, you can't find 
your seat.
    Finally, when she showed up, I said, ``where were you?'' 
She said, ``I was in the line.'' You should have seen that 
line. She said it was all around the wall. I mean, people 
everywhere.
    And then, about 3 weeks later, I was in the airport in 
Florida, and I saw this long line. And then, of course, being 
from New York, I thought they were giving away something. I 
wanted to make certain that I got some of it whatever they were 
giving away. And then I looked and I realized there were only 
women in the line. And then I looked and they were going to the 
bathroom. And I said, gee, this is ridiculous. Something needs 
to be done. And that's what precipitated me to get involved.
    I talked to my ranking member, who I must admit also spoke 
to his wife about it as well. And, of course, he is now 
committed to being helpful. I want you to know I appreciate 
that. Thank you very much. Thank you very, very much.
    On this note, I yield now to the ranking member for any 
questions that he might have.
    Mr. Issa. I think after you talked to Gwen and I talked to 
Kathy there shouldn't be too many questions.
    With both of you having done different laws in different 
States, let me try to focus on the base legislation versus 
where we should go from here. Rep. Clark, Ms. Clarke, you did a 
mandate of two to one in New York.
    Ms. Clarke. That's correct.
    Mr. Issa. Was that based on a study?
    Ms. Clarke. That's correct. That's correct. Actually, there 
is a provision in the Federal Building Code that called for 
two-to-one ratio; and that's what we followed.
    Mr. Issa. OK. In checking on this, that Federal ratio, 
oddly enough, didn't count urinals. So the GSA setup is 
basically one to one if you count urinals, two to one if you 
don't count urinals. So it is a little ambiguous, and it's one 
of the things we hope to resolve.
    Mr. Cohen, your legislation had to be modified based on an 
observation that no fixed ratio necessarily solved the problem; 
is that correct?
    Mr. Cohen. Mr. Issa, that's accurate. Because we had the 
two-to-one ratio. And I think it was the University of 
Washington--there were like two universities that had scholars 
that had done a lot of research, and I believe that was one of 
them.
    We took the two to one, and it worked in most facilities 
but didn't work at the Titan Stadium. I went up to the Titan 
Stadium, and I climbed up there and looked. I saw they didn't 
have enough facilities, and there was just a need to change it. 
So we did change it.
    We gave some discretion to the State Building Association. 
But I would suggest that if you give discretion that you 
require that they give a reason--maybe set a standard and then 
require them to give a reason why they deviated from that 
standard and give some rational basis to require them to do 
some type of study and explain their decision.
    Mr. Issa. Well, H.R. 4869 currently is a one-to-one ratio 
and requires GSA--which, of course, doesn't control DOD which 
is a separate challenge for us--to have these various reasons. 
Current law on purchase--current law when GSA builds or 
purchases a building is a one-to-one ratio. Current practice in 
September 2000 when GSA leases is that they do an assessment 
based on the anticipated ratio of men to women in the building. 
Now I would assume that for both of you that flexibility of 
analyzing the current ratio and adjusting it if the ratio 
changes periodically would be a good part of the base bill. An 
all-men's prison, don't put in equal amounts of men's and 
women's rooms, I assume would be good judgment.
    Ms. Clarke. I would agree. We just want to keep into 
account visitors, which tend to be women and their children 
that may accompany them, because women oftentimes take their 
children, as well as correction officers where the ranks of 
corrections are becoming more and more women involved as well. 
So those would be some of the considerations.
    Mr. Issa. I think you're hitting the nail right on the 
head. You have those kind of ratios to consider.
    Let me ask sort of an additional question. Our current 
legislation doesn't call for a new study based on certain 
criteria. Would such criteria--and I would like your input 
after the hearing, too--as to anticipated age of the people who 
are going to be in a building--you mention that. Obviously, the 
gender ratio, the attire--I think Ms. Norton sort of made it 
pretty clear at the Kennedy Center women may be needing to do 
more that would cause them to be even longer. Well, at a 
baseball game, we're all in shorts; and just going in and out 
it may be much quicker. Those and other items.
    Do you believe that we should include in our legislation 
sort of the analysis so that we get it right the first time and 
what the legislation doesn't currently envision is a 
flexibility of design for future ratio changes? Are all those 
elements that, based on your two experiences in legislation, we 
should include in others?
    Mr. Cohen. Mr. Issa, I agree that you need to include those 
things. But there's no question, no matter where you go, there 
are two types of business. And when you go in and you're a man, 
you don't have to take off any clothing. It can be done, and 
you're in and you're out. You don't do lipstick and you don't 
do anything and you're out.
    Mr. Issa. You're not a Californian, but OK. In Tennessee, 
you don't.
    Mr. Cohen. Women have always got to remove clothing; and no 
matter where it is, whether it is coats or whatever, it's going 
to take more time. And so I won't give--in almost any business, 
any museum, or government building, there needs to be a two-to-
one ratio.
    Mr. Issa. This is what I'm getting to, is our current base 
legislation was dropped as a one to one to correct, if you 
will, the past tendency to have less than one to one, even 
though the current GSA guidelines were one to one. And what I'm 
hearing today--and the chairman's leadership on this, 
obviously, is crucial--is that we need to, one, find out if two 
to one is the right ratio, find out when it is the right ratio, 
make sure our legislation adjusts for total occupancy, 
including visitors; and then we have to have sufficient 
flexibility for the fact that we don't want to build twice as 
many women's rooms in a building that currently has nobody, but 
we need to be able to adjust as that changes in Federal 
buildings that last at least an average of 46 years. Is that 
pretty much what you're coming to us with?
    The chairman's being indulgent with the time, but, very 
quickly, can you tell me, if we're looking at a 100-year 
building and we're in a 1962 building, is that what we need to 
make sure we get right here so that we not be arbitrary but 
also so that we get it right for equal access?
    Ms. Clarke. I would say those are some of the 
considerations.
    The one thing that you probably--we probably all cannot 
anticipate is the length of stay for individuals within the 
restroom facility. Everyone is trying to rush out, yes. As we 
stated, women have extraordinary circumstances that oftentimes 
men don't have. We are always carrying handbags with us. There 
are always extra things that just aren't part of the male 
exercise each and every day. Women, on the other hand, have 
those significant challenges. And then you're talking about 
women of varying ages. So all of those factors would have to be 
taken into consideration in an environment where we know that 
there are going to be a lot of people traveling through.
    A place like this, for instance, is a place where we know 
that there are going to be visitors in addition to those who 
work here, that are going to call for that type of ratio to be 
closely examined; and I think that you have come up with a 
number of the significant variables.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Chairman Towns. I think the gentleman is raising some very 
interesting questions. Because when you look at the overall 
picture, one thing we might be able to do to help out a little 
bit is to put changing boards into the men's bathroom so that 
the men will be able to do some changing of the babies as well 
because they are not in our bathrooms. So I think that might be 
one thing to sort of help eliminate----
    Mr. Issa. We're both in the grandparent age. We're getting 
away with a lot by saying the next generation should have these 
changing rooms.
    Chairman Towns. Thank you very much.
    I now yield to the gentleman from Maryland.
    Mr. Cummings. Mr. Chairman, I will be very brief.
    First of all, I want to thank you all for your testimony. 
It has been extremely helpful. This legislation--similar 
legislation didn't get very far the last time. I think we need 
to approach this, as our chairman has, with the urgency of now 
so that we can make it happen; and we will certainly work with 
you all to try to make that happen. That's why I'm so glad, Mr. 
Chairman, that you held this hearing today. So now we have to 
move it along and get this through the House and get our Senate 
colleagues to act with some type of urgency.
    Because, as you have laid it out, it is an urgent 
situation. And we can mess around and mess around and we will 
be making these same discussions, having these same discussions 
10 years from now and so many women would have been deprived 
for so long.
    So, with that, I just want to just thank you; and, with 
that, Mr. Chairman, I yield back.
    Chairman Towns. I thank the gentleman from Maryland.
    I yield to the gentlewoman from Washington, DC.
    Ms. Norton. No questions, Mr. Chairman.
    Chairman Towns. I now yield to the gentlewoman from 
California, Ms. Watson.
    Ms. Watson. I am going to share with you my opening 
statement because I don't have a question, and I want to 
indicate how our Nation's Capitol is really slow in responding 
to this.
    Restroom parity was brought to the national stage in 1974 
when my good friend California Secretary of State March Fong Eu 
smashed a toilet bowl on the steps of our State Capitol to 
protest pay toilets in the State. I was in the California State 
Senate when we passed the first restroom parity bill, the 
California Restroom Equality Act introduced by then Senator Art 
Torres in 1987. His wife had taken several children to the 
Colosseum in Los Angeles; and, you know, at half-time they ran 
out. The kids had been waiting all through the game, and they 
ran out to go to the restroom, and the line was like around the 
stadium. So she took them to the men's restroom. Yes, they were 
in and out. So she took her children that she had with her to 
the men's restroom and then took this legislation to her 
husband and you know it got passed.
    California understood then that many public buildings had 
insufficient facilities for women because of outdated notions 
of the prevalence of women in the workplace. Since then, many 
States and municipalities have adopted a similar statute, but 
today's bill would be the first Federal legislation to address 
restroom parity. Now we're 3,000 miles on the other side of the 
country, and we're just now getting our State Capitol to 
realize this is a human basic need and we need to correct it.
    So throughout our history public restrooms have been the 
site of discrimination based on race, gender, and physical 
ability. In the old South, people had to--if you looked like 
me, you had to go to the back room, which was usually really a 
place that was filthy most of the time, uncared for, unkempt, 
and you were dressed in your Sunday-go-to-meeting clothes, and 
you had to go to the colored restroom. So the Civil Rights Act 
in 1964 eliminated this form of discrimination based on race. 
Just as in 1990 the Americans with Disabilities Act required 
reasonable access for disabled people to such facilities.
    So with today's legislation we have the opportunity to 
finally address gender discrimination in Federal facilities by 
requiring that one-to-one ratio for any Federal building 
constructed for public use and by mandating that preference be 
given to buildings that meet that ratio when leasing new 
Federal buildings.
    So I just want to thank our author and coauthor and for 
bringing this late--not you, but this country has been late. 
You see, we're always on the cutting edge in California. So 
thank you for catching up with us. Good luck. We should pass it 
out. Thank you, Mr. Chairman.
    Chairman Towns. I would like to thank the gentlewoman from 
California for her comments. And of course we have tried hard 
to catch up. No doubt about it.
    I now yield to the gentleman from Texas, Congressman 
Cuellar. Any questions you might have. No questions.
    No other questions from the committee?
    Well, let me thank both of you for your testimony. I look 
forward to working with you in terms of making this a reality. 
I think the time has come. You made the case. And, of course, 
we need to do something about it. I want to congratulate you on 
what you've done in New York. I want to congratulate you on 
what you've done in Tennessee. So we look forward, as 
Congresswoman Watson says, to catching up; and that's what we 
hope to be able to do. Thank you so much for your testimony.
    Ms. Clarke. Thank you.
    Mr. Cohen. Thank you, Mr. Chairman.
    Chairman Towns. We ask our second panel to come forward: 
Commissioner Robert Peck, Commissioner of Public Building 
Services for the General Services Administration; Dr. Kathryn 
Anthony, professor of architecture at the University of 
Illinois; and Sharon Pratt Dixon, former Mayor of Washington, 
DC.
    Before you sit down, it is a longstanding policy that we 
swear all of our witnesses in. If you would be kind enough to 
raise your right hands.
    [Witnesses sworn.]
    Chairman Towns. Let the record reflect that they answered 
in the affirmative. You may be seated.
    Let me begin by asking all witnesses to summarize their 
testimony in 5 minutes. Of course, the yellow light means you 
have a minute left; and the red light all over America means 
stop. And then, of course, we will have time to ask questions, 
of course, which is very important.
    So why don't I begin with you, Commissioner Peck. Please 
present your testimony.

  STATEMENTS OF ROBERT A. PECK, PUBLIC BUILDING SERVICE, U.S. 
GENERAL SERVICES ADMINISTRATION; KATHRYN H. ANTHONY, PROFESSOR, 
   SCHOOL OF ARCHITECTURE, UNIVERSITY OF ILLINOIS AT URBANA-
   CHAMPAIGN; AND SHARON PRATT, FORMER MAYOR, WASHINGTON, DC

                  STATEMENT OF ROBERT A. PECK

    Mr. Peck. Thank you, Mr. Chairman. I note the presence 
previously of Ranking Member Issa and other members of the 
committee. Thank you for inviting me to appear before you today 
to discuss H.R. 4869, the Restroom Gender Parity in Federal 
Buildings Act. Our administrator, Martha Johnson, is interested 
in this, too.
    GSA supports restroom gender parity. We strive to provide 
welcoming, easily accessible, and comfortable facilities and 
equally accessible restrooms for our Federal work force and 
visitors. GSA's current standards achieve parity in most 
instances in buildings that we are now building and renovating, 
and they exceed private building code standards. In the few 
instances in which our current standards do not meet parity, 
GSA is revising our standards to ensure that the goal is 
achieved.
    We own more than 1,500 Federal buildings on behalf of the 
American people, and we provide space to more than 1 million 
Federal employees. As you are aware in this committee, I 
believe, GSA has an aging portfolio of buildings. The average 
age of a GSA government building is 46 years.
    We have over 500 buildings that were built before 1950, 
during a time in which there were fewer women in the work force 
or at least the perception that there were fewer women in the 
work force. As a result, most of our older buildings do not 
meet parity in restrooms, but as we modernize and as we 
construct new buildings we improve our facilities to meet the 
goal of parity.
    We publish a facility standards document that establishes 
design standards and criteria for new construction and major 
alterations in GSA buildings, largely derived from industry 
standards, including the International Code Council standards. 
Our standards exceed industry building codes and generally meet 
restroom parity. In other words, we provide more restrooms for 
both men and women than the private codes generally require.
    Since the early 1980's, our standards have prescribed the 
number of toilets required in men's and women's restrooms. In 
most instances, the number of toilets in women's restrooms 
equals the combined number of toilets and urinals in men's 
restrooms. In assembly areas such as training and conference 
facilities in our buildings, we require more toilets in women's 
restrooms than in men's restrooms and, in fact, the ratio of 
three to two.
    There are, however, in our current standards three tiers 
out of eight--and the tiers are tiers in which we consider the 
number of people per restroom--three tiers out of eight in 
which our facility standards, although, again, higher than the 
building code requires, where we do not meet restroom parity. 
We are revising our standards to insure gender parity in all 
circumstances. We are issuing a new facilities standards 
document, and it will require parity across all of the tiers. 
And I would note that three of the eight tiers we are off by 
one, that there are three occasions on larger numbers of people 
per floor in which our current standards would allow more men's 
facilities then women's.
    I should also note we recently surveyed our buildings, and 
it appears that in almost all of the new courthouses and other 
buildings we have been building over the last 15 years we've 
met the parity standards. As we continue to modernize older 
buildings in our inventory, we meet these parity requirements.
    In addition to federally owned buildings--and your 
legislation contemplates this--we also lease a lot of 
facilities for the Federal Government. The GSA standard leasing 
solicitation for offers, an FSO, requires lessors to provide 
toilet fixtures, and it currently says based on the ratio of 
men and women who will occupy the leased space. I think that's 
a standard that is hard to contemplate, hard to predict, and 
we're going to change our standard to require that restroom 
parity be available in every leased facility where we can find 
it.
    I just have to note that there are occasions in which we 
lease facilities in rural or very small areas, small towns, in 
which we don't have a lot of competition; and it may not be 
possible to find a leased facility that has parity. But those 
will be waiver instances; and, otherwise, we're going to 
require it.
    As I mentioned, we support improving the quality and 
equality in restrooms wherever possible. We are going to 
address this issue as we undertake future construction, 
modernization, and leasing actions. We fully support the 
intention of this bill; and, as I say, we are moving today to 
make sure that in those few instances where we don't currently 
meet the standard that we will.
    I want to thank you for inviting me to testify today; and, 
of course, I'm happy to answer any questions.
    One other note is I would like--we will submit our current 
facility standards for your record that you can see them.
    [The prepared statement of Mr. Peck follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Towns. Thank you very much, Commissioner Peck.
    Now I would like to call on Dr. Kathryn Anthony, the 
professor of architecture at the University of Illinois.

                STATEMENT OF KATHRYN H. ANTHONY

    Ms. Anthony. Chairman Towns, Ranking Member Issa, members 
of the committee, thank you so much for the invitation to 
appear before you today. It's an honor and one of the 
highlights of my professional career.
    I'm the only female full professor in the school of 
architecture at the University of Illinois at Urbana-Champaign, 
where I've taught for 26 years. I have published widely on 
gender issues and design. I applaud the committee for 
addressing an issue near and dear to my heart and near and dear 
to the hearts and bladders of women and children all across the 
United States, one that is long overdue.
    Ever since California led the way by passing the Nation's 
first potty parity legislation, many States and municipalities 
across the country have passed similar laws and ordinances to 
provide equal speed of access for women and men to public 
restrooms. Yet today marks a milestone. It's the first time 
that this issue is addressed at the Federal level. 
Congratulations.
    I stand here today on behalf of your mothers, grandmothers, 
daughters, granddaughters, sisters, aunts, nieces, and 
countless female friends. No matter what our race, color, 
creed, age, size, shape, or political party, Democrat, 
Republican, independent, or green, we all share one frustrating 
experience. All too often, we watch our male counterparts zip 
out in and out of the restroom in a flash, while at the ladies 
room we are stuck waiting in long lines, and the men in our 
life have been stuck waiting for us. Why?
    Much of our built environment, including that owned by the 
Federal Government, was constructed in a different era, one 
where women were not as prevalent in the public realm and in 
the work force as we are today. Until recently, most 
architects, contractors, engineers, building code officials, 
and clients were not concerned about this issue. They rarely 
contacted women about their restroom needs. Women were rarely 
employed in these male-dominated professions, nor were they in 
a position to effect change, but, finally, now we are.
    Why is this important? The average person uses a toilet 
about six to eight times a day, as many as 2,920 times per 
year. By age 80, we will have taken 200,000 trips to the toilet 
and spent 2 years of our life in restrooms. No matter what our 
stature in life, whether we are the President of the United 
States, the First Lady, or the homeless person on the street, 
we are all use them.
    We may laugh, and we may joke, but for millions of people 
around the world, boys and girls, men and women of all ages, 
especially pregnant and menstruating women, using the restroom 
is no laughing matter. Emergencies happen, accidents happen, 
urinary tract infections happen, delaying voiding can result in 
serious medical conditions. Unsanitary, unsafe restrooms in our 
Nation's schools force thousands of children's to wait to use 
their bathroom at home; and holding it in can take its toll.
    Forcing half the population to wait in line for restrooms 
is a subtle yet powerful form of gender discrimination. Public 
restrooms are just one of many instances where women and girls 
are disadvantaged by design, a topic I'm writing about in my 
new book. Even in the U.S. Capitol, until recently, 
Congresswomen and women Senators were forced to use restrooms 
far away from the House and Senate floors, causing some to miss 
important votes.
    Public restrooms are a fundamental part of our Nation's 
infrastructure, just as important as our roads and bridges. 
Taking care of our bodies is just as important as taking care 
of our cars. Public restrooms are a health and safety issue. In 
this respect, we lag far beyond countries like Japan where 
clean, safe, available restroom are integral parts of urban 
landscape.
    If it were up to me, contracting cutting-edge, well-
designed, safe 21st century public restrooms should be part of 
another national stimulus package. They make downtowns more 
user friendly, they encourage walking and help combat obesity. 
It would be money well spent.
    In an ideal world, I would call for even greater numbers of 
women's to men's fixtures, as is already the case in many 
States and municipalities with ratios of two to one, three to 
one or even four to one. Such ratios are most needed when large 
groups of people amass all at once, such as when a court 
session adjourns or when a group of schoolchildren visit.
    In an ideal world, I would call for a mandatory retrofit to 
all existing buildings, not just renovation and new 
construction. Just as millions of persons with disabilities 
benefit every day from the Americans with Disabilities Act 
[ADA], millions of women and children would benefit every day 
from even greater potty parity laws. But, as a realist, I 
believe that this act paves the way for future changes that 
could have just as sweeping an impact as the ADA.
    It's now time for the Federal Government to act. Today's 
proposed legislation is a small but significant step in the 
right direction, an achievement worth celebrating, one that you 
can all be proud of. It will have a positive impact on women 
and children across the USA and on the men who wait for them. 
That's one small step for Congress, one giant leap for 
humankind. Thank you.
    [The prepared statement of Ms. Anthony follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Towns. Thank you very much, Dr. Anthony, for that 
very powerful statement.
    Now we will have Sharon Pratt, the former Mayor of 
Washington, DC, and the only woman ever to be Mayor of 
Washington, DC. Ms. Pratt.

                   STATEMENT OF SHARON PRATT

    Ms. Pratt. Hopefully, that will change.
    Good morning, everyone.
    Mr. Chairman, distinguished members of the House Committee 
on Oversight and Government Reform, I appreciate the 
opportunity to testify in support of H.R. 4869, the Restroom 
Gender Parity in Federal Buildings Act.
    I believe an overwhelming number of Americans, especially 
women and girls, support the principles and purpose of this 
legislation. However, some may be hesitant about coming forward 
to support this legislation because it's so easy to make light 
of this effort and to mock those advancing this cause. As such, 
I truly appreciate the leadership you have provided, Chairman 
Towns, Congressman Issa, Congresswoman Clarke, Congresswoman 
Visclosky have provided in this matter.
    I'm a native Washingtonian, as is my distinguished 
representative, Eleanor Holmes Norton, and except for 3 years 
in New York City I have lived here all my life. Not 
surprisingly, I have regularly patronized Federal buildings for 
meetings, major events, and recreation; and I can speak from 
personal observation and experience as a woman resident, as the 
former Mayor of this city, as the mother of two daughters, as a 
grandmother now of a granddaughter.
    With regards to the disparity in restrooms, you can 
characterize it as follows: It is glaring, it is inconvenient, 
it is enormously inefficient, and it is downright unfair. 
Indeed, given the logistics associated with the restroom 
ritual, true parity would probably require a two-to-one ratio 
of toilets for women to men. Nonetheless, I am pleased to 
support and endorse in my way legislation that at least ensures 
some level of parity in this matter.
    Our society has come a great distance in my lifetime. We 
certainly are a society today that now genuinely supports equal 
rights for women. However, it's a practical reality that a 
woman would be late for a meeting, miss much of a concert 
because there are built-in impediments to equally navigating 
the world at large. Stemming from an absence of parity in 
restrooms, women are still not equal.
    Mr. Chairman and members of this committee, I heartily 
applaud you for your leadership on H.R. 4869.
    [The prepared statement of Ms. Pratt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Towns. Thank you so much for your testimony.
    Let me thank all three of you for your testimony. I think 
you've been very, very helpful; and let me just sort of ask a 
couple of questions.
    First, Dr. Anthony, how can we get people to take this more 
seriously?
    Ms. Anthony. Yeah, I think that is an excellent question. 
And so many people joke about this subject, but when it affects 
you personally, it is not funny. How we can get people to take 
it more seriously is, there are a lot of people out there with 
invisible issues that really desperately need bathrooms right 
away but we don't know who they are. They know who they are. We 
probably all know people who have these situations, but they 
may not all make them apparent to us.
    Combat war veterans, people who have been injured may have 
serious situations with bladder control. Older men with 
prostate problems, also an issue. Anybody who has experienced 
that, imagine what it would feel like if you needed to relieve 
yourself and you couldn't find an open stall right away. That 
is what it feels like for women on a regular basis and for 
children on a regular basis.
    There are a lot of people who have reasons why they would 
need to use a restroom right away--all sorts of colitis, other 
kinds of issues, people who have to change ostomy bags, a lot 
of people out there who really, really need better restrooms. 
So it is a health and safety and a medical issue.
    Chairman Towns. Ms. Pratt, let me ask you, being the former 
executive of a city that has a tremendous amount of Federal 
buildings, do you think that if we would improve this situation 
that it might even assist us economically?
    Ms. Pratt. Well, I would have to encourage--it would have 
to be a plus, in terms of encouraging use of Federal buildings. 
Because, to me, the overarching issue is just how illogical it 
is, how, you know, obviously inefficient and illogical it is. 
And you are discouraging at least a half, if not more, often, 
of the population from using your facilities. So I think it 
could only be a plus in terms of encouraging use of our Federal 
buildings.
    Chairman Towns. Let me ask you, Commissioner, you know, I 
know you have a lot of issues over at GSA; how important is 
this issue at GSA? Is it a priority?
    Mr. Peck. Well, let me answer two ways.
    It is clearly an issue that, over the years, has been 
enough of an issue that we have changed our standards and 
brought our standards up to one of parity. I do want to say, it 
is not an issue I had given a lot of thought to until you 
scheduled the hearing, and I think that is quite useful.
    In the kinds of buildings that we at GSA run--and I want to 
note, we are one of about 30 land-holding and building-owning 
agencies in the Federal Government--our buildings tend to be 
office buildings, courthouses, and laboratories where that kind 
of work of the government gets done. And for most of the square 
footage that we operate, people have the option of going to the 
bathroom at their will. So it is spread out during the day. And 
when we take surveys of tenant satisfaction in our building, we 
are not finding complaints about the availability of 
facilities, either for men or women.
    Having said that, and I noted in my testimony, we do have 
conference areas, assembly areas, we have offices that are run 
for Social Security, Internal Revenue, Citizenship and 
Immigration Services, in which the public does come into our 
facilities, and courthouses too obviously, and which it is 
important to us that people have a good experience when they 
come to the Federal building. And so, I think in those areas, 
in particular, where we already have a ratio required higher 
than 1:1, again, we believe we are on the right track, but, 
quite honestly, I would be interested in seeing more research 
on whether we are providing enough facilities.
    Chairman Towns. Let me just ask you this before my time 
runs out, Dr. Anthony. You know, this is among the last 
bastions, of course, of gender discrimination. And I can't 
figure out, why are we still fighting this battle?
    Ms. Anthony. Why are we still fighting this battle? I am 
glad you asked that question. I think it is a key question of 
the day. We are in the year 2010, and how come this issue 
hasn't already been addressed?
    Things move very slowly. I am always amazed how, in our 
world of technology--you know, we have had the Internet and 
iPods and iPhones, and so many things have come about in our 
lifetime so quickly, but when it comes to this issue of 
restrooms, particularly for gender parity and restrooms, we 
have been moving at a snail's pace--at a snail's pace.
    One of the reasons why is, I think women really need to 
have a voice on this issue, and we haven't had a voice on this 
issue until now. Look at who is here today and who is 
interested in this issue, and look at who is behind me. I think 
the fact that we are here is significant.
    I think one of the reasons why: Women who are pregnant, big 
issue for them, they are often very busy and don't have time to 
come and do what I am doing today, nor have they had the 
opportunity or the invitation to come.
    Our ADA was passed now about 20 years ago. That has been a 
long time. We had many issues that have come about throughout 
our course of history that have moved slowly, and others have 
moved more quickly. But this particular one, why now, and why 
is it one of the last bastions of gender discrimination? I 
think it has to do, in part, also, with the fact that toilets 
have been a taboo topic. We all use them, but they are a hidden 
part of our environment, a secret part of our environment that 
we don't talk about much. And we have to bring them out from 
under the rug.
    One of my colleagues, Jack Sim, has been involved in a 
World Toilet Organization. He founded an international 
organization, about 50 member countries, been trying to improve 
sanitation conditions all over world. I applaud him. He has 
been noted as one of the most effective social entrepreneurs in 
the world. We need to do the same here in the United States: 
Get this issue out from under the rug and get us talking about 
it and legislating about it.
    Chairman Towns. Thank you very much.
    I now yield 5 minutes to the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Peck, if a woman feels that there are not enough, say, 
restrooms in her workplace for females, both in the Federal 
buildings and in the private sector, where would she voice that 
concern? And how would that be handled?
    Mr. Peck. Well, probably the same way that we get 
complaints if the heating or air conditioning aren't working or 
if the restroom facilities that we do have aren't working. And, 
of course, we run a lot of buildings; we sometimes get them.
    She would generally take it to her supervisor, or, in most 
buildings, we pretty prominently let employees know that there 
is a number they can call to have their agency's facilities 
manager get in touch with the GSA building manager in those 
buildings where GSA actually manages it. Some agencies manage 
their own buildings even though we may own them. We have it 
pretty clear for people to know where they can go for their 
complaint of that nature.
    Mr. Cummings. And do you have any idea what the history is 
with regard to those complaints and remedies? And I understand 
that sometimes it can be very difficult, but do you have any 
knowledge of--say, for example--I guess what I am concerned 
about--you know, we are in a hearing now, and I hope and I do 
believe the bill will pass, but, in the meantime, I am just 
trying to figure out, you know, exactly what is going on and 
how those issues have been addressed.
    And, I mean, is there any kind of protocol for that kind of 
thing, you know? I guess that is what I am trying--or is it 
just they have a complaint and then it is dropped into a black 
box that is never opened?
    Mr. Peck. No, you know, Congressman Cummings, in both the 
private sector and public sector, while the issue of gender 
parity in restrooms is not a big issue, the issue of 
availability of facilities in general and their cleanliness is 
a huge issue in building management. And I would say, right 
behind complaints about whether a person's work station feels 
too warm or too cold--probably that is the largest number of 
complaints you get in a building--complaints or concerns about 
the adequacy of facilities and their cleanliness is right 
behind it.
    So we do field those all the time. It is a serious issue. 
As I said, when we modernize buildings, you know, the one thing 
you know you are going to modernize in an old building are the 
restroom facilities.
    I also, as I noted, we survey all our tenants on a rolling 
basis every 3 years. And so, where we do get complaints about 
the restroom facilities, we are pretty quick to address them. 
We grade our building managers on how people feel about their 
building.
    So I have to tell you that the complaints we generally get 
are about whether the fixtures are working or the cleanliness 
in a facility, and I am not aware--and we did take a quick 
look. We don't seem to have a lot of complaints in our 
buildings, because they are mostly office space, of the 
adequacy of women's facilities.
    Mr. Cummings. Maybe one reason why you may not get as many 
complaints is because it has become accepted. You follow what I 
am saying?
    Mr. Peck. Sure.
    Mr. Cummings. And people get to a point of saying, well, 
why even bother? And you still seem like--you are not really 
hitting my--I know it is not your intention to avoid my 
question----
    Mr. Peck. No. Congressman, can I----
    Mr. Cummings [continuing]. So let me state it another way.
    If, when somebody comes with a--cleanliness, I understand 
that is probably pretty easy to resolve. But when it comes to 
women in a workplace and they see a situation where it is just 
ridiculous with regard to the parity and they feel that they 
are experiencing some of the things that we have heard 
witnesses talk about already, I mean, you know--and I am not 
talking about just a 3-year survey because, again, I am talking 
about the urgency of this moment.
    So what happens in the meantime? In other words, they have 
to wait, or do they have to wait for 10 years when you renovate 
the building, or 15 or 20? I mean, what--do you follow me?
    Mr. Peck. Yes, sir.
    Mr. Cummings. So, in other words, if you really went in and 
you saw the need right now, how would that be resolved? I mean, 
would you say, OK, maybe we need to knock out that room down 
the hall there and create a bathroom? And is there any history 
of that? That is what I am trying to get to.
    Mr. Peck. In my experience--and I held this job in the 
Clinton administration for 5 years also--I have not been--I was 
not aware of any complaints in our buildings--I will go back to 
your question of whether we are getting the complaints in the 
first place--I am not aware of any complaints in our buildings 
that indicate that we have an inadequate number of women's 
facilities versus men's.
    And, again, I think one possible reason for that is that we 
are mostly an office environment. We don't get the surge that 
you get in a ball game in the seventh inning or at a concert 
during intermission. So people can, sort of, spread out their 
response to their need over the course of the day.
    Whether people have given up, whether women have just sort 
of said, ``I guess this is the way it is,'' I don't know. But I 
informally asked some of our senior managers last week at a 
meeting from around the country if they are aware of lines on 
the office floors or in our lobbies at restroom facilities, and 
these are people who are career employees, have been doing this 
in many cases for more than 20 years, and they are not aware.
    But, again, I think it is the nature of our facilities in 
GSA. We don't run very many museums, for example, which have a 
very different--a very different issue.
    Mr. Cummings. I see my time is up. Thank you, Mr. Chairman.
    Chairman Towns. Thank you very much.
    I now yield to the ranking member, Congressman Issa of 
California.
    Mr. Issa. Thank you, Mr. Chairman.
    And 5 minutes isn't enough, but it will do if you will all 
agree to answer our followup questions.
    Commissioner, your table is, in my estimation, a fairly 
generous table. If you have no surge and if you have nine 
employees and, as a result of nine employees, you have three 
facilities, toilets, for women and three facilities, one urinal 
and two toilets, for men, six toilets, nine people, that is 
pretty generous. Six toilets, 24 people is still probably 
sufficient. And then it continues that way with your 
guidelines.
    Is it possible that, effectively, what we are talking about 
is you have too many facilities for men and too many facilities 
for women but not so many ``too many'' for women but a great 
deal more for men?
    You know, looking at the Federal facility we are in--I have 
been here a long time, not as long as some people, but 10 
years. I have never seen a line for the men's or the women's 
room in Rayburn Office Building.
    Assuming this is built to that standard, and I suspect it 
is, are we really talking about a per-building adequacy that, 
in this case, does not envision the 7-Eleven on the freeway, 
which always has this huge line for the two facilities for 35 
pumps outside; the facility at the Kennedy Center, which 
clearly is a disaster with equal number of men and women in 
that surge that occurs at intermission and so on? Are we 
talking about a standard that is more than just changing your 
core standard for office buildings but really about some of 
these other facilities?
    And if you could briefly respond, more briefly than my 
question.
    Mr. Peck. OK. I do think our standards for an office, as I 
have said, appear to be generous. I will also say that I think 
some of these standards probably have arisen as custom over 
time, not as a result of research. I think there are a lot of 
other facilities that the public goes to--we run some, we run a 
retail facility in the Reagan Building, we run the National 
Building Museum--in which we know that we need a different 
scale of facilities, higher even than what you see here 
probably, and perhaps a different ratio of men's to women's. 
And I think that, whatever you do, you should take that into 
account, that there are different kinds of facilities with 
different needs.
    Mr. Issa. And I will tell you something from observation. I 
noticed the tremendous amount of restrooms that are in this new 
billion-dollar building we call the Capitol Visitor Center. And 
when I asked about it, they said, ``Well, it is based on the 
maximum occupancy.'' And, apparently, we never get to 10 
percent of the maximum occupancy. So that is an example where I 
guess they planned for an amount that has yet to occur.
    Mr. Peck. I would think that maximum occupancy in that 
space must be pretty high.
    Mr. Issa. Huge.
    Dr. Anthony, you probably--although it has been since 2007 
for your major publication, you have studied this as a question 
of, what is parity? Do you know of much followup since your 
2007 study?
    And I ask this specifically because it appears as though 
GSA would benefit if this committee required more statistical 
analysis and study based on not just office buildings but based 
on the range of Federal buildings.
    Ms. Anthony. Uh-huh, yeah. I am not aware of further 
studies on the subject, but I will say that building codes have 
been modified over the last few years. They are revised on a 
regular basis. I am sure my colleague knows well about that, 
could speak to that issue probably better than I could.
    But they have been changing to keep pace with this issue, 
and there have been modifications made to, for instance, major 
places of assembly over the last several years, to have more 
facilities for women than we have had in the past. So the 
building codes are the places to look. But, again, they are not 
necessarily state-of-the-art either. I think they are being 
adjusted on a regular basis.
    One of the things I will also say that we do need and we 
have seen some changes in more unisex facilities, more family 
restrooms. So where we talk about parity, there is also the 
issue of the opposite-gender parent or grandparent going with 
the opposite-gender child or grandchild. So that is a place 
where, again, the numbers of men's and women's restrooms is a 
separate issue, but that is related and very important. So we 
need more family restrooms, we need more unisex restrooms to 
help in situations like that.
    Mr. Issa. Well, and when Mr. Cummings talked--and he has 
left right now--but after I spoke the first time, I got the 
feeling that he thought I was trying to delay the legislation. 
And I am hopeful that you can answer a question, not because I 
want to delay legislation, but because I want to get it right.
    Do you believe that this committee should take apart the 
legislation relative to further study, not just to hearing, but 
further study, to get the numbers more broadly right in the 
sense of future flexibility, what the standards should be based 
on different types of facilities, such as a place that has 
surge versus one that doesn't, a place in which women are 
younger versus older, a place in which women are in evening 
gowns or slacks?
    Is that worth our getting it right, in order to create, if 
you will, a more as-needed design to ensure that in all cases 
at least there is a good-faith effort to provide equal access?
    Ms. Anthony. I think the building codes already do that. 
And I would suggest that, since this issue is on the table 
right now and it hasn't gotten this far ever before, I think 
you just keep going. I don't think you need further study on 
it. I don't think you need further research. I think the issue 
is clear from the testimony that we have all had that the 
problem has been around for generations and needs to be 
addressed now. And I think further study would just delay the 
issue and it might never get anywhere. So----
    Mr. Issa. OK. Then I just have one closing question. I 
brought it up earlier. Roughly 17 percent of the Pentagon are 
currently women; 83 percent are men. If this legislation were 
to come exactly at a time of retrofit, it would appear as 
though we would simply make sure that there were exactly the 
same number of women's rooms as men's rooms and same number of 
facilities at the Pentagon. Is that what you think should 
happen?
    Ms. Anthony. I would go ahead with what has been proposed, 
because, again, the work force is changing. And who would have 
known 46 years ago, or the average age when many of these 
buildings were built, what would be happening today? I think, 
similarly, we can say today, how would we be able to project 
what the change will be in the future?
    Mr. Issa. Following up one last time, if you are in a 
building that has two-thirds women and one-third men, under 
this legislation we are going to build exactly the same amount 
of facilities for women as men, even though there are more 
women than men. Is that OK with you, under this legislation? 
That is what is in the legislation if we don't do further study 
or amendments.
    Ms. Anthony. Well, I think you do need to look at the 
building codes of what is appropriate and what are the 
appropriate ratios in the particular type of building. So we 
are talking about many different types of places. So----
    Mr. Issa. Ma'am, this legislation is not the building code. 
This legislation trumps the building code. This an order with 
certain limited exemptions for GSA, which, by the way, doesn't 
control DOD, so it wouldn't have an exemption for DOD for this.
    And I ask that because I really want to get it right. And I 
just want you to understand that, if we move the current 
legislation the way it is or if we don't know how to modify it 
necessarily, that is what it would do. And I just want to make 
sure, because you have studied this more than anyone else here.
    Ms. Anthony. I think what is being proposed is very good, 
and I would support it as is.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Towns. Thank you very much. Let me thank the 
gentleman for his questions.
    I now yield to the Member of Congress who has more Federal 
buildings in her district than anybody else in the United 
States of America, Congresswoman Eleanor Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. And whose 
subcommittee has primary jurisdiction over GSA, as well.
    Now, to followup on the question of the ranking member, 
statutory law at the moment says what, Mr. Peck?
    Mr. Peck. You know, we have not found a--we have not found 
a statutory provision----
    Ms. Norton. So there is no statute governing this matter.
    Mr. Peck. As near as we can tell. There are OSHA regs for 
private sector, and we have our own code.
    Ms. Norton. So, as I understand the bill before us, it 
says, ``equals or exceeds.'' This is obviously a bill aimed to 
make sure that women are not put in an unequal position.
    The ranking member is correct; you may have a building 
which has more men than women who are employed in the building. 
I am not sure what that tells us, necessarily, about the number 
of visitors to the building. It may or may not tell us 
something.
    But in light of the fact that the bill says ``equals or 
exceeds,'' do you believe that you would have sufficient 
discretion to deal with buildings which may, in fact, have 
different genders that come at different times?
    And remember who used to come here once and who comes here 
now. Remember that in the House of Representatives we have very 
few women now, and yet there is parity, as the ranking member 
said, here in the Rayburn and I think in most of the buildings.
    Would this law keep you from exercising the appropriate 
flexibility as it now stands, the language?
    Mr. Peck. As regards GSA, I don't believe so. I believe it 
could work. There is a provision in the legislation that says 
that the administrator of General Services can issue a 
statement if the parity is unachievable or not feasible, and I 
think we would want that kind of discretion.
    I would note, I mean, there are--and you have alluded to 
it. At one time, we would have built a land port of entry or 
border station with hardly any facilities for women, at least 
among the patrol force, because Customs didn't have more very 
many women agents. And now they do. And we don't want to factor 
into our planning the way the work force looks now because we 
think it will change and evolve, which makes it a little more 
complicated.
    But, in any event, I think that the legislation gives us 
some discretion that is important----
    Ms. Norton. I regret that we have to do a bill at all. This 
is the kind of matter that I think should be done 
administratively. We are forced to do a bill because of what 
the experience does show.
    Mr. Peck, as you know, I am also on the Homeland Security 
Committee, and I have a beef with the way in which we secure 
our buildings that is relevant, I think, to this hearing. I am 
going to give you an example of what I mean. We are talking 
about people visiting buildings, but you and I know of a 
building, a very new building, to which the public doesn't have 
access at all, whether they have to go to the lavatory or not. 
I refer to the brand-new Department of Transportation building 
along M Street.
    Bad enough that the security involves a Federal employee 
having to come down to get even a staff member from the House 
of Representatives for admission to that building. But what I 
think is far worse--and I pick M Street for a reason. M Street 
is just being built up. We have our Southeast Federal Center 
bill. We are so pleased with the progress you are making on 
that construction.
    But imagine a woman or parent who finds herself down there 
on M Street, and they say, ``Oh, there is a Federal building. 
At last, we have a place we can go to use the lavatory, 
Johnny.'' But she gets to the door of the Department of 
Transportation, and even though there is a magnometer there to 
protect the public and the building, she is not admitted to the 
building to use the restroom, to use the cafeteria paid for by 
public funds.
    How can you justify closing off lavatories to people 
outside of the building who have every reason to believe that a 
building paid for by taxpayers is one that should admit them, 
given the proper magnometers and security and perhaps even 
showing some identification?
    Mr. Peck. Ms. Norton, as you know from our previous 
conversations, I share your concern about the lack of 
consistency in building access into buildings in Washington, 
DC. I have been having conversations with the Federal 
Protective Service, which has a role in this; with the 
Interagency Committee on Security, which has some control over 
this; and with some of the agencies, including the Department 
of Transportation, that have these rules.
    I can only tell you that, so far, I have had only limited 
success in changing some of the standards. But I agree with you 
that, in many instances, our security standards do not and 
should not--our security concerns do not require that we keep 
people out of the public restrooms.
    If I can note, by the way, our rules in GSA do require 
that, where restroom facilities are accessible to the public, 
that they include baby-changing stations so that they could be 
available for people to use----
    Ms. Norton. Oh, it is lovely if you could just get into the 
building in the first place.
    Mr. Peck. Correct.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chairman, I think minimally, while we are concerned 
with visitors going in buildings, I think that there ought to 
be the presumption that a taxpayer has a right to come into a 
building to use the lavatory if she shows the right 
identification. That may be the only building available in some 
parts of downtown, for example, in many cities.
    Thank you very much.
    Chairman Towns. All right. Thank you very much for your 
questions.
    Also, let me yield now to the gentlewoman from California, 
who has challenged us to catch up with California. So we want 
to----
    Ms. Watson. There was a question just raised by my 
colleague about a facility that already has an excess of 
women's restrooms. The bill is prospective, and it directs you 
from here on, when you are leasing or renovating, to be sure 
and--and it focuses on women. So I don't think that is going to 
be a problem even if they have a majority of women in a 
facility, because it is prospective and you will adjust based 
on what the need is. So I don't think that is going to be a 
problem.
    I want to welcome all of you. And, particularly, Ms. Pratt, 
it is good to see you again, our FEMA leader of our Nation's 
capital.
    Ms. Pratt. Thank you.
    Ms. Watson. I want to tell you the reason why it is 
imperative that we have equal access to restrooms. I am going 
to refer back to the California Legislature and the Senate.
    When I was elected in 1978 to the California State Senate, 
I was only the second woman; the first one was elected in 137 
years. To be present in the Senate for a vote, you have to be 
on the red carpet. When the first woman in the Senate was 
elected--her name was Rose Ann Vuich--after 137 years, there 
was no restroom available on the red carpet. So if she were 
somewhere else using a restroom out in the public hall, she 
could not be counted for the vote. So when they found out she 
hit one, they had to take a reprographics room and change it 
into a restroom. It was small like a closet. And they never put 
``women'' or ``ladies.'' They just put a rose up. It was ``the 
rose room.''
    Now, here I come a year and a half later, and my name is 
not Rose. When I needed to go to the restroom, I would have to 
go to her to get the key.
    Now, they were renovating the capitol. We had a major 
earthquake, and they had to renovate the Capitol. When they 
completely redid it, guess what? There was no women's restroom, 
Dr. Anthony, because there were only men who were architects. 
And when we said, you know, ``You don't have a women's restroom 
on the red carpet,'' they said, ``Oh, we didn't think of it.''
    So thank God we have you there. You know, I always thought 
that women should design kitchens and restrooms. And you can 
think about that.
    So we brought it to their attention. They took a supply 
room, and they changed it into a women's restroom. And we said, 
you know, ``We need a place to shower.'' You know, we needed to 
have equality with what the men had. And we had take them step 
by step all along the way. Because if you have to excuse 
yourself and a vote came up, you could not vote unless you were 
on the red carpet. So it was a matter of legally participating 
in our elected responsibilities. And so there is a 
justification, and in Federal buildings, absolutely.
    So we need to modernize our thinking. There should not be a 
question. We don't need another study. Studies just delay a 
particular decision. We need to get about passing this bill. 
And I would recommend, Mr. Chairman, that we don't need any 
more testimony, any more questions. Let's process this bill.
    Thank you very much. I yield back.
    Chairman Towns. Let me thank the gentlewoman from 
California for her statement, of course. And we look forward to 
working with you to make this a reality.
    And, of course, let me say to you, Commissioner Peck, you 
know, we will continue to talk with you as we move forward. But 
the point is that we really want to move this legislation 
forward. And, of course, you know, there is a thing called 
``amendments.'' If we think that, you know, it will strengthen 
it, but not to weaken it, you know, we want to do that. And, as 
I indicated, I think there are some things that we might need 
to do as we move along. But we will have dialog.
    But we really, really want to get this done. And I also 
want to thank the ranking member for his work on it, as well. 
And, this time around, we hope to be able to move it all the 
way and it will become law.
    I want to thank you, Dr. Anthony, for all of your work. I 
want you to know we have followed it, and you have really, 
really, really spent time and you, sort of, kept this in the 
forefront. And I want you to know that we appreciate, you know, 
your work.
    And, of course, Ms. Pratt, for your work. And as the only 
female ever to be mayor of Washington, DC, we thought it was 
important to have you as a witness, because you have seen it, 
you know, from that point as a leader in this city and, of 
course, with all these Federal buildings, you know, in terms of 
the situation.
    And I think that all of you have had experiences that you 
probably don't want to share, I am sure. You know, I was 
talking to one of our colleagues, and she indicated to me, 
says, ``Yeah, do it, move it forward,'' she said, ``because I 
went into the men's room,'' she said, ``because, shoot, I 
couldn't wait.'' So I am sure there are a lot of stories like 
that where, you know, women have gone into the men's room. 
Because I know I was at a football game and some lady ran into 
the men's room. So, I mean, I can imagine there are others that 
have done that.
    And I think that the time has come that we really need to 
move this legislation forward. And, of course, again, thank you 
for your testimony. And I look forward to further input, you 
know, from you as we move forward.
    And I agree with my colleague. We don't need a whole lot of 
studies. I think this thing has been studied. And I think that 
the fact that there is a change in the work force, we need to 
recognize it. Not only is there a change in the work force, 
there are just more women in the country than men. There are 
more female babies born than male babies. Women live longer 
than men. And all of these things are factors that we need to 
just, sort of, take into consideration and move forward with 
this legislation.
    I want to thank you again for your testimony.
    And this committee now stands adjourned.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
